Department of Health and Human Services
                                  OFFICE OF
              INSPECTOR GENERAL




   INAPPROPRIATE MEDICARE
         PAYMENTS FOR
  TRANSFORAMINAL EpIDURAL
      INJECTION SERVICES




                    ~, SERVICEs

                                       Daniel R. Levinson
                                        Inspector General

       § E
       0(
       '"
       ~
        'õ  "'..
                :;
        "'~';~~"JØ'UJ''1

               ""Jp;l1I1ifJa
                                          August 2010
                                        DEI -05-09-00030
                            Office of Inspector General
                                                     http://oig.hhs.gov
The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served b'y those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Offce of A udit Services
The Offce of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and effciency throughout HHS.

Offce of Evaluation and Inspections
The Offce of         Evaluation and Inspections COEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of 01 often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Offce of Counsel to the Inspector General (OCIG) provides general         legal services to

OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG's internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
.. EXECUTIVE SUMMARY
                   OBJECTIVE
                   1. To determine the extent to which Medicare Part B payments for
                       transforaminal epidural injections met Medicare requirements.
                   2. To determine what safeguards existed to ensure Medicare Part B
                       payments for transforaminal epidural injections met Medicare
                       requirements.

                   BACKGROUND
                   Medicare Part B physician payments for transforaminal epidural
                   injections increased from $57 milion in 2003 to $141 milion to 2007.
                   This represents an increase of almost 150 percent.

                   Transforaminal epidural injections are a type of           i pain
                                                                                inter   ventiona


                   management technique used to diagnose or treat pain. Transforaminal
                   epidural injections may be used to treat pain that starts in the back and
                   radiates down the leg, such as that from a herniated disc pressing on a
                   nerve. Two primary codes, 64479 and 64483, are used to bil a single
                   injection in the cervical/thoracic or lumbar/sacral areas of the spine,
                   respectively. Each primary code has an associated add-on code for use
                   when injections are provided at multiple spinal             levels.
                   Medicare Part B contractors are responsible for implementing program
                   safeguards to reduce payment error. To safeguard payments,
                   contractors may create local coverage determinations (LCD), implement
                   electronic edits (hereinafter referred to as edits), or conduct medical
                   review.
                   We conducted a medical record review of a stratified random sample of
                   433 transforaminal epidural injection services performed in 2007. In
                   addition, we reviewed documents and conducted structured interviews
                   with contractor staff about program safeguards for transforaminal
                   epidural injections.


                   FINDINGS
                   Thirty-four percent of transforaminal epidural injection services
                   allowed by Medicare in 2007 did not meet Medicare requirements,
                   resulting in approximately $45 milion in improper payments.
                   Medicare allowed an additional $23 millon in improper facility
                   payments associated with physician services in error. Nineteen percent
                   oftransforaminal epidural injection services had a documentation error.

 OEI.05.09.000JO   INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES
EXECUTIVE                         SUMMARY
                  Documentation errors were more likely to occur in office settings.
                  Thirteen percent of transforaminal epidural injection services had a
                  medical necessity error. Eight percent had a coding error. Seven
                  percent had an overlapping error.
                  In 2007, 9 of 14 contractors had an LCD for transforaminal epidural
                  injection services, but reported limited use of other safeguards.
                  Nine of the fourteen contractors had an LCD for transforaminal
                  epidural injections. However, only one contractor enforced all LCD
                  requirements through edits.
                  No contractor staff            reported performing a mep.ical review.


                  RECOMMENDATIONS
                  Based on the results of our review, the Centers for Medicare & Medicaid
                  Services (CMS) should:
                  Conduct provider education, directly and through contractors, about
                  proper documentation.
                  Strengthen program safeguards to prevent improper payment for
                  transforaminal epidural injection services. To improve program
                  safeguards, CMS could encourage contractors to examine
                  transforaminal epidural injection services provided in offces. CMS
                  could also encourage contractors to develop LCDs for transforaminal
                  epidural injections and develop additional edits enforcing LCD
                  requirements. Finally, CMS could encourage contractors to use medical
                  review to identify improper payments for transforaminal epidural
                  injection services.
                  Take appropriate action regarding the undocumented, medically
                  unnecessary, and miscoded services identified in our sample. We
                  wil forward information on these services to CMS under separate cover.

                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with our recommendations and outlined steps to
                  improve its oversight ofpayments for transforaminal epidural injection
                  services. We did not make any changes to the report based on CMS's
                  comments.




OEI.05.09.00030   INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES   11
~ TABLE            o F           CONTENTS

     EXECUTIVE SUMMARy...... .............................. 1



     INTRODUCTION ..............".............................1



     FIN DIN G S . . . . . . . . . . . . '. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 12
               Thirty-four percent of transforaminal epidural injection services
               allowed by Medicare in 2007 did not meet Medicare requirements,
               resulting in approximately $45 milion in improper payments. .. 12

               In 2007, 9 of 14 contractors had an LCD for transforaminal
               epidural injection services, but reported limited use of other
               safeguards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 14


     R E COM MEN D A T ION S ..................................... 18
               Agency Comments and Office ofInspector General Response. . .. 19



     A P PEN D I XES ............................................. 20
               A: Detailed Methodology. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 20

               B: Confidence Intervals for Selected Estimates. . . . . . . . . . . . .. 23

               C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 25

     A C K NOW LED G MEN T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 27
..       NTRODUCTION
                   OBJECTIVE
                   1. To determine the extent to which Medicare Part B payments for
                       transforaminal epidural injections met Medicare requirements.
                   2. To determine what safeguards existed to ensure Medicare Part B
                       payments for transforaminal epidural injections met Medicare
                       requirements.

                   BACKGROUND
                   Chronic pain affects more adults in the United States than diabetes,
                   heart disease, and cancer combined.1 Several organizations, including
                   the Department of   Veterans Mfairs and the Joint Commission, have
                   recommended that physicians routinely assess pain in their patients.
                   Treatment varies depending on the type of                           pain and can range from
                   noninvasive to invasive, or interventional, techniques.2
                   Medicare paid over $2 bilion in 2007 for interventional pain
                   management services.3 Examples of     inter ventiona i pain management
                   services include injections, nerve blocks, and spinal cord stimulation.
                   From 2003 to 2007, Medicare physician payments      for transforaminal
                   epidural injections, a type of interventional pain management service,
                   increased by almost 150 percent.4 Physician payments for
                   transforaminal epidural injections increased from $57 milion in 2003 to
                   $141 milion in 2007.5 These payments represent approximately
                   i 1 percent of all Medicare physician payments for interventional pain
                   management services.6



                      1 American Pain Foundation, Pain Facts & Figures, July 8, 2009. Accessed at
                   http://www.painfoundation.org/ on February 1, 2010,
                     2 Noninvasive pain management techniques may include physical therapy; invasive, or
                   interventional, techniques may include injections near the source of pain,
                     3 Estimate based on Offce ofInspector General (OIG) analysis of
                                                                                                physician claims for
                   interventional pain management procedure codes in a I-percent sample of the
                   2007 National Claims History (NCH) outpatient and physician/supplier fie,
                     4 Estimate based on OIG analysis of physician claims for transforaminal epidural
                   injection procedure codes in the following Medicare claims fies: (1) 2003 ¡-percent sample
                   ofNCH physician/supplier file and (2) 2007 IOO-percent NCH physician/supplier file,
                     5 Ibid,

                     6 Estimate based on OIG analysis of
                                                                    physician claims in the following Medicare claims
                   files: (i 2007 100-percent NCH physician/supplier fie and (2) I-percent sample of the
                   2007 NCH physician/supplier fie.


 OEI.05.09.00030   INAPPROPRIATE MEOICARE PAYMENTS FOR TRANSFORAMINAL EplOURAL INJECTION SERVICES                       1
NTRODUCTION
                  The number of                 Medicare physician claims for transforaminal epidural
                  injection services increased by 130 percent from 2003 to 2007.7 Over
                  295,000 Medicare beneficiaries received transforaminal epidural
                  injection services in 2007.8

                  In addition, a number of investigations by OIG and the Federal Bureau
                  of Investigation (FBI) have found fraudulent activity related to
                  transforaminal epidural injections. In one joint OIG-FBI case, an Ohio
                  physician was convicted of multiple counts of health care fraud for
                  fraudulent interventional pain management procedures, including
                  transforaminal epidural injections.9 In a separate case in 2008, a
                  Maryland physician pled guilty to health care fraud after submitting
                  $1.75 millon in false claims to Medicare and other insurers. The false
                  claims were for transforaminal epidural injections and other
                  interventional pain management services.                        10


                  Transforaminal Epidural Injections
                  Transforaminal epidural injections may be used to treat back and leg
                  pain, including pain that starts from the back and radiates down the
                  leg, such as that from a herniated disc pressing on a nerve. For some
                  patients with chronic pain, transforaminal epidural injections of
                  medication into the back help to reduce inflammation and relieve pain.
                  A transforaminal epidural injection is given through the foramen
                  (plural "foramina") of the spinal column. The foramen is an opening in
                  a vertebra where the spinal cord nerve roots exit the spine. The spinal
                  column includes 24 levels of movable vertebrae that are divided, from
                  top to bottom, into cervical, thoracic, and lumbar regions. 11 Each level
                  of   vertebrae has a pair offoramina, one on the left side and one on the
                  right side.12



                     7 Estimate based on OIG analysis of physician claims for transforaminal epidural
                  injection procedure codes in the following Medicare claims files: (1) 2003 I-percent sample
                  of NCH physician/supplier fie and (2) 2007 100-percent NCH physician/supplier file,
                     8 Based on OIG analysis of physician claims for transforaminal epidural injection
                  procedure codes in the 2007 100-percent NCH Medicare Part B physician/supplier fie.
                    9 D,S, Department of Justice, D,S, Attorney's Offce, Northern District of Ohio, Press
                  Release, June 9.2006. Accessed at http://www.usdoj,gov/on November 24,2009.
                       10 Sara Taylor, Doctor with Waldorf offce guilty offraud, Southern Maryland
                  Newspapers Online, February 27,2008. Accessed at http://www.somdnews.com/on
                  June 12,2009.
                       11 Henry Gray, Anatomy
                                                     of   the Human Body, II.,3. Accessed at http://www.bartleby.com
                  on July 28, 2010.
                       12 Ibid.




OEI.05.09.00030   INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES                   2
NTRODUCTION
                       During a transforaminal epidural injection, the physician injects
                       medication through the foramen close to the affected nerve root in the
                       patient's back. This technique may enable the physician to inject the
                       medication as close to the source of pain as possible, reducing
                       inflammation and relieving the patient's pain. See Figure 1 for an
                       example of the target point, through the foramen, for a transforaminal
                       epidural injection.


                      Figure 1:
                       Trans-
                     foraminal
                      Epidural
                     Injections




                  Source: The Pain Clinic, "Selective Transforaminal Nerve Root Blocks," Accessed at http://ww.painclinic.org/on

                  September 2. 2009,



                       Radiographic guidance. To reduce patient risk, many physicians use
                       radiographic guidance (such as live x-ray) to establish the placement of
                       the needle and avoid puncturing the spinal cord and vertebral arteries
                       that are located near the injection point. Some physicians perform the
                       procedure without radiographic guidance, which is referred to as a
                       "blind" injection. One study concluded that physicians "blindly"
                       performing epidural injections failed to correctly perform the injections
                       for 25 percent of cases.13 Even in cases where transforaminal epidural
                       injections have been administered with radiographic guidance,




                          13 G, El- Khoury, et al. Epidural Steroid Injection: A Procedure Ideally Performed with
                       Fluoroscopic Control Radiology, voL. 168 (2), pp. 554-557,



OEI.05.09.00030        INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES                          3
NTRODUCTION
                  complications resulting in stroke, paralysis, and death have been
                  documented.
                                   14


                  Frequencv of injections. The appropriate frequency oftransforaminal
                  epidural injections varies by patient. Typically, a patient receives an
                  initial injection, referred to as a diagnostic injection, which helps
                  confirm the suspected source of     pain and determine whether the
                  transforaminal injection is successful at relieving the pain. If a patient
                  responds well and demonstrates pain relief, the patient receives a
                  second injection, referred to as a therapeutic injection, at a subsequent
                  visit. Therapeutic injections could continue at subsequent visits if a
                  patient continues to demonstrate sustained pain relief.
                  Setting and specialtv. Transforaminal epidural injections may be
                  performed in a variety of settings. Approximately 43 percent of the
                  injections were performed in offce settings, 29 percent in ambulatory
                  surgical centers (ASC), and 27 percent in hospital outpatient
                  departments.15 Less than 1 percent of transforaminal epidural
                  injections were performed in other settings.
                  A physician in any specialty can perform a transforaminal epidural
                  injection. However, in 2007, three types of specialists performed
                  86 percent of the transforaminal epidural injections.16 They are
                  anesthesiologists, pain management specialists, and rehabilitation
                  physicians. A variety of other physician specialists performed the
                  remaining 14 percent, including orthopedic surgeons, neurologists,
                  radiologists, and family practice physicians.
                  Medicare Requirements for Transforaminal Epidural Injections
                  General provisions of the Social Security Act (the Act) govern Medicare
                  reimbursement for all services, including transforaminal epidural
                  injections. Section 1862(a)(i)(A) ofthe Act states that Medicare wil
                  cover only services that are considered to be reasonable and necessary.
                  Reasonable and necessary services are those used in the diagnosis or
                  treatment of ilness or to improve the functioning of a malformed body
                  part.


                      14 Graham C. Scanlon, et aL. Cervical transforaminal epidural steroid injections: more
                  dangerous than we think? Spine, voL. 32 (l1), p. 1249.
                     15 OIG analysis of
                                        physician claims for transforaminal epidural injection procedure codes
                  in the 2007 100-percent NCH Medicare Part B physician/supplier fie,
                      16 Ibid.




OEI.05.09.00030   INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES               4
NTRODUCT                          o N


                  Providers must properly document medical care to support that it is
                  medically necessary. Section 1833(e) of                      the Act prohibits payment for a
                  claim that is missing necessary information. Further, Medicare
                  requires that providers keep documentation in the medical record to
                  support the claim submitted, including, but not limited to, provider
                  notes and test reports,1 Providers must submit this information to
                  Medicare upon request to support medical necessity.18
                  Providers must use uniform procedure codes to report all services,
                  including transforaminal injection services.19 The CPT codes and
                  descriptions for transforaminal epidural injections are listed in
                  Table 1,0 Two primary codes, 64479 and 64483, are used for a single
                  injection in the cervical/thoracic or lumbar/sacral regions of the spine,
                  respectively. Each primary code has an associated add-on code for use
                  when more than one level is injected. The add -on codes are 64480
                  (cervical/thoracic) and 64484 (lumbar/sacral).
                  Table 1: Transforaminal Epidural Injection CPT Codes and
                  Descriptions
                    CPT Code Description                    Injection; anesthetic agent and/or steroid, transforaminal epidural;
                    64479                                                                      cervical or thoracic, single level

                                                            Injection; anesthetic agent and/or steroid, transforaminal epidural;
                    64480 (add on)                                                   cervical or thoracic, each additional level

                                                            Injection; anesthetic agent and/or steroid, transforaminal epidural;
                    64483                                                                         lumbar or sacral, single level

                                                            Injection; anesthetic agent and/or steroid, transforaminal epidural;
                    64484 (add on)                                                      lumbar or sacral, each additional  level
                    Source: American Medical Association CPT descriptions, 2007,




                     17 CMS, Medicare Program Integrity ManuaL, Pub, No, 100-08. ch.3, § 11.1. The Manual
                  does not provide examples of the types of test reports required, Test reports for
                  transforaminal epidural injection services would likely include reports from diagnostic tests
                  that may identify whether the patient has a condition that is appropriately treated with
                  transforaminal epidural injections.
                     18 CMS, Medicare Program Integrity ManuaL, Pub. No. 100-08, ch.3, § 11.1.
                     19 Section 1848(c)(5) of the Act requires the Secretary of Health & Human Services to
                  develop a uniform coding system for all physician services, The American Medical
                  Association's Current Procedural Terminology (CPT) codes are a numeric coding system
                  consisting of descriptive terms that are used primarily to describe medical services and
                  procedures performed by physicians and other health care practitioners,
                     20 Although physicians may refer to transforaminal epidural injections as diagnostic or
                  therapeutic, both types of injections are reported using the same procedure code, Procedure
                  codes do not distinguish between diagnostic and therapeutic.




OEI.05.09.00030   INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES                          5
NTRODUCTION
                  Medicare Part B Payments for Transforaminal Epidural Injections
                  Medicare reimburses physicians for transforaminal epidural injections
                  according to the Medicare Physician Fee Schedule.21 Medicare
                  reimburses ASCs and hospital outpatient departments for their facility
                  expenses separately from the payments made to physicians.
                  Physician Payments. The Medicare Physician Fee Schedule includes two
                  types of rates, based on setting: those paid to physicians for services
                  rendered in nonfacilities, such as their offices; and those paid to
                  physicians for services rendered in facilities, such as ASCs or hospitals.
                  Physician Fee Schedule rates for office services are generally higher
                  than those for facility services because they include payment for
                  practice expenses, such as building costs, administrative salaries, and
                  equipment. Medicare Physician Fee Schedule rates are adjusted to
                  account for geographic location. The base rates for physician payments
                  for transforaminal epidural injections in 2007 are listed in Table 2.22

                  Table 2: Medicare Physician Fee Schedule Base Rates, 2007
                   CPT code Office Facility
                   64479                                                $327.81                       $112.56

                   64480                                                $151,21                         $73,52

                   64483                                                $328.95                         $99,67

                   64484                                                $156.90                         $62.15
                   Source: Medicare Physician Fee Schedule. 2007,

                  Reimbursements for primary codes 64479 and 64483 are higher because
                  they include presurgical and postsurgical expenses related to the
                  procedure that the add-on codes, 64480 and 64484, do not.

                  Physician payments also vary based on the modifiers23 biled with the
                  CPT. For example, bilateral transforaminal epidural injections, which
                  are performed on both the right side and the left side of a vertebral
                  level, should be biled using modifier 50, which increases
                  reimbursement to 150 percent of the base rate.



                    21 Section 1848(a)(i) of
                                             the Act established the Medicare Physician Fee Schedule as the
                  basis for Medicare reimbursement for all physician services beginning in January 1992,
                    22 Base rates are national Medicare Physician Fee Schedule amounts with no adjustment
                  for geographic variation by locality,
                     23 Modifiers are two-digit codes biled in conjunction with the appropriate CPT code,



OEI.05.09.00030   INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES            6
INTRODUCTION
                  Facilty Payments. Medicare reimburses ASCs and hospital outpatient
                  departments based on ASC payment groups and the hospital outpatient
                  prospective payment system, respectively. The base rates for facility
                  payments for transforaminal epidural injections in 2007 were $333 in
                  an ASC and $390,95 in a hospital outpatient department.24
                  Claims Processing and Program Safeguards
                  CMS is in the process oftransitioning its contracts with the private
                  organizations that process and pay Medicare claims, formerly known as
                  carriers. CMS is replacing carriers with Medicare Administrative
                  Contractors (MAC). MACs will process all Part A and Part B claims
                  within new jurisdictions covering all States. By 2011, MACs should be
                  operational in every State and the District of Columbia.
                  Carriers and MACs (hereinafter referred to as contractors) are
                  responsible for implementing program safeguards to reduce   payment
                  errors. To safeguard payments, they may create local coverage
                  determinations (LCD)25, implement electronic edits (hereinafter
                  referred to as edits), or conduct medical review.
                  Leos. Contractors may develop their own coverage guidelines called
                  LCDs when no National Coverage Determination (NCD) exists.26 LCDs
                  vary by contractor and may result in different coverage in different
                  parts of the country.
                  LCDs help to safeguard Medicare services by defining whether services
                  are reasonable and necessary and therefore covered by Medicare.
                  Among other reasons, contractors may develop LCDs to address
                  problems presenting a significant risk to the Medicare Trust Fund or a
                  patient's access to care.27

                  LCDs typically cover the following topics: (1) indications and
                  limitations of coverage and/or medical necessity, (2) covered diagnosis
                  codes supporting medical necessity, (3) documentation requirements,
                  and (4) utilization requirements.


                      24 Ambulatory Surgical Center Approved Healthcare Common Procedure Coding System
                  (HCPCS) Codes and Payment Rates, 2007, and Hospital Outpatient Prospective Payment
                  Rates,   2007,
                      25 CMS, Medicare Program Integrity ManuaL, Pub, No, 100-08, ch,13, § 1.3.
                      26 NCDs, issued by CMS, govern how Medicare wil cover specific services, procedures, or
                  technologies at a national   leveL.
                      27 CMS, Medicare Program Integn'ty ManuaL, Pub, No. 100-8, ch, 13, § 4,



OEI.05.09.00030   INAPPROPRIATE MEOICARE PAYMENTS FOR TRANSFORAMINAL EplOURAL INJECTION SERVICES            7
INTRODUCTION
                  Edits. Contractors may implement edits to prevent improper payments.
                  These edits are part ofthe claims-processing system that automatically
                  pays all or part of a claim, denies all or part of a claim, or suspends all
                  or part of      the claim for manual review.
                  CMS encourages contractors to develop edits to enforce criteria in an
                  LCD.28 Once a contractor develops an edit, it must annually evaluate
                  the edit for effectiveness. CMS considers an edit effective when it has
                  a reasonable rate of denials, a reasonable dollar return on the cost of
                  operation, or potential to avoid significant risk to beneficiaries.29

                  Medical review. Contractor staff may request and review medical
                  records to address program vulnerabilities related to coverage and
                  coding. CMS requires contractors to analyze data in order to target
                  medical review activities at identified problem areas and prioritize
                  medical review resources.
                  Related Report
                  A recent OIG study found problems with another type of interventional
                  pain management service, facet joint injections. OrG found that
                  63 percent of facet joint injection services allowed by Medicare in
                  2006 did not meet Medicare requirements, resulting in approximately
                  $96 million in improper payments. 30



                  METHODOLOGY
                  To determine the extent to which payments for transforaminal epidural
                  injections met Medicare requirements and what safeguards existed, we
                  (1) conducted a medical record review ofa sample ofMedicare claims
                  from 2007, (2) reviewed CMS and contractor policies related to
                  safeguarding transforaminal epidural injection services, and
                  (3) conducted structured telephone interviews with contractor staff.
                  Scope
                  We focused our review on Medicare physician claims for transforaminal
                  epidural injections. Unless otherwise stated, all estimates refer to
                  physician payments.



                    28 CMS, Medicare Program Integrity ManuaL, Pub. No. 100-08, ch, 13, §§ 5.3 and 10.
                    29 CMS, Medicare Program Integrity ManuaL, Pub, No. 100-08, ch.3, § 5.1.1.
                    30 OIG, Medicare Payments for Facet Joint Injection Services, OEI 05-07-00200,
                  September 2008.



OEI.05.09.00030   INAPPROPRIATE MEOICARE PAYMENTS FOR TRANSFORAMINAL EplOURAL INJECTION SERVICES         8
INTRODUCTION
                  Sample Selection
                  The population from which we sampled consisted of all                          2007 allowed
                  physician servces in the NCH physician/supplier file for transforaminal
                  epidural injection CPT codes 64479,64480,64483, and 64484. We
                  restricted our population to Medicare physician services biled in offces,
                  ASCs, or hospital outpatient departments as 99 percent oftransforaminal
                  injection servces were biled in these settings,s1 We excluded claims that
                  were less than $15 to avoid performing medical record review on low dollar
                  claims,s2 The population consisted of approximately 800,000 claims and
                  $141 milion in allowed physician payments. From this population, we
                  selected a stratified random sample of 440 Medicare physician line item
                  claims,33 stratifying by place of service reported on the claim (offce or
                  facility) and the Medicare-allowed amount. See Appendix A for further
                  details on the sample selection, data collection, and data analysis.
                  Data Collection
                  Afer excluding 2 services from the 440 in our sample because of
                  ongoing OIG investigations, we requested, by mail, complete medical
                  records from physicians for 438 sampled services. We classified
                  providers for five services as nonresponders,s4 Thus, we based our
                  analysis on the remaining 433 line items. This represents a 99.percent
                  response rate.
                  In June and July 2009, we conducted structured telephone intervews
                  with staff at the 11 contractors that were processing Medicare Part B
                  claims at that time. Between 2007 and 2009, the number of contractors
                  processing Medicare Part B claims was reduced from 14 to 11. These
                  11 contractors that we interviewed covered the entire country at the
                  time ofthe interviews.

                  During each interview, we asked contractor staff                     for information about
                  program safeguards in place in 2007, the time                     frame associated with our
                  analysis. Specifically, we clarified our understanding of                       the LCDs and


                     31 Based on OIG analysis of
                                                       physician claims for transforaminal epidural injection
                  procedure codes in the 2007 IOO.percent NCH Medicare Part B physician/supplier fie.
                     32 These claims represented less than I percent of the population.

                     33 Multiple line items may be biled within a single claim, Hereinafter, line items wil be

                  referred to as services,
                     34 A nonresponder is defined as a provider with whom no successful contact was made
                  after at least three written contacts and two phone calls. Providers with whom successful
                  contact was made who did not return the requested medical records were not counted as
                  nonresponders, but rather as having a documentation error.


OEI.05.09.00030   INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES                9
INTRODUCTION
                  inquired about what edits they had in place associated with the LCDs.
                  Because CMS requires the outgoing contractors to inform the incoming
                  contractors of edits on LCDs, we were able to obtain written
                  confirmation from the 11 contractors that we interviewed about the
                  program safeguards used by all  14 contractors operating in 2007. Thus,
                  we report on information from all                      14 contractors operating in 2007.

                  We collected and reviewed all 30 LCDs for transforaminal injections in
                  place in 2007. LCDs are published on the CMS Web site. We requested
                  and received from contractor staff written confirmation of the correct
                  LCDs in all States for 2007.
                  To understand how program safeguards may have changed since 2007,
                  we also consulted with all contractors about 2009 safeguards, including
                  LCDs and edits.
                  Medical Record Review. We used a medical record review contractor to
                  conduct the medical record review. The reviewers included three
                  board -certified physicians with interventional pain management and
                  transforaminal epidural injection experience and one certified
                  professional coder. One physician and the coder reviewed each of                       the
                  medical records.
                  The reviewers determined whether the service was adequately
                  documented and medically necessary and whether the appropriate CPT                              "
                  code and modifier(s) were used. Reviewers based their determination
                  on a review of the medical record and their professional judgment.
                  Data Analysis
                  To determine the extent to which payments for transforaminal epidural
                  injections met Medicare requirements, we analyzed the results of the
                  medical review. We determined the percentage of   physician services
                  that   did not meet Medicare requirements. We also calculated the
                  projected physician 'dollars associated with these services. We then
                  compared physician office error rates to facility (ASC and hospital
                  outpatient department) error rates. Finally, we used the NCH files,
                  containing ASC and hospital outpatient department facility payments,
                  to match to the associated physician service found to be in error and
                  then projected the identified facility dollars paid .in error.
                  To determine what safeguards existed for transforaminal epidural
                  injections, we analyzed all documentation of program safeguards and
                  reviewed information collected during the contractor interviews. We
                  analyzed the number and type of LCD requirements that the contractor

OEI.05.09.00030   INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES             10
INTRODUCTION
                  had in 2007. In addition, we analyzed the number and type of edits
                  each contractor had in 2007. We considered a contractor to have an
                  LCD or edit if it covered at least one State within the contractor's
                  jurisdiction at any time in 2007. To determine whether any safeguards
                  changed, we analyzed the LCDs and edits in 2009 and compared those
                  to the ones in place in 2007. Finally, we reviewed information collected
                  during the interviews to assess what other program safeguards
                  contractors had in place.
                  Comprehensive Error Rate Testing
                  CMS established the Comprehensive Error Rate Testing (CERT) to
                  calculate the Medicare fee-for-service paid claims error rate. As of 2009,
                  the CERT has not reported any specific information about
                  transforaminal epidural injections. This review was not designed to
                  reproduce or to review CERT findings.
                  Limitations
                  We were not able to calculate medical review error rates by contractor
                  to assess whether the contractor safeguards had an impact on error
                  rates. We were unable to do this because we did not stratify our sample
                  by contractor, so our sample size per contractor was too small to project
                  or compare error rates across contractors.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspections approved by the Council of the Inspectors General on Integrity
                  and Efficiency.




OEI-05.09.00030   INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES   11
.. FINDINGS

Thirty-four percent of transforaminal epidural                                        Medicare allowed approximately
    injection services allowed by Medicare in                                         $45 million in improper payments
   2007 did not meet Medicare requirements,                                           to physicians for transforaminal
                                                                                      epidural injections in 2007. These
     resulting in approximately $45 milion in
                                                                                      improper payments represent
                          improper payments                                           32 percent of the $141 milion in
                                                                                      physician payments for
                           transforaminal epidural injections in 2007.
                           Thirty-four percent oftransforaminal epidural injection services did not
                           meet Medicare requirements. Table 3 shows the error rates and
                           associated payments for physician claims by error type. Confidence
                           intervals for projected error rates and payments are in Appendix B.


           Table 3: Improperly Paid Medicare Transforaminal Epidural                                           Injection
           Services-Physician Claims, 2007

                                                                       Sample                            Projected

                                                                                  Allowed                               Allowed
           Type of Error                                Services                              Services
                                                                                  Amount                                Amount
           Documentation                                       87                 $19,504         19%                $29 milion

           Medical Necessity                                   56                 $12.109         13%                $19 millon

           Coding                                              35                  $3.626          8%                 $6 milion

           (Overlapping Errors)                              (30)                ($6,161)        (7%)                ($9 milion)

              Total                                          148                  $29,078        34%"            $45 milion

           Source: OIG analysis of medical review results, 2009,

           .Numbers do not always sum to total because of rounding,



                           Medicare allowed an additional $23 milion in associated facility claims
                           for transforaminal epidural injections in error in ASCs and hospital
                           outpatient departments. See Appendix A for further discussion of
                           estimates for associated facility claims. Although the focus ofthis
                           review is on physician claims, we also analyzed facility claims that were
                           submitted for the physician claims paid in error to provide additional
                           context. The remaining analyses focus on physician claims only.
                           Nineteen percent of transforaminal epidural injection services had a
                           documentation error
                           Medicare allowed approximately $29 milion for physician services that
                           were undocumented or insuffciently documented. Although some
 OEI.05.09.00030           INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES                          12
FINDINGS
                  documentation errors may be the result of recordkeeping problems,
                  others may represent services not rendered. Records lacking
                  documentation to show that care was provided do not meet Medicare
                  requirements.
                   Ten percent of transforaminal epidural injection services were undocumented.
                  Medicare allowed approximately $14 milion for undocumented
                  transforaminal epidural injection services. For the majority ofthese
                  services, a record was submitted but contained no documentation of the
                  sampled service. In all other cases, the requested record was never
                  submitted.
                  Nine percent of transforaminal epidural injection services were insufficientlv
                  documented. Medicare allowed approximately $15 milion for
                  insufficiently documented transforaminal epidural injection services.
                  Most records were missing a description ofthe procedure as biled.
                  Some other records had a procedure note, but were missing details of
                  the procedure, such as the location and frequency of the injection. In
                  each case, the reviewer concluded that there was insufficient
                  documentation to support the service.
                  Documentation errors were more likelv to occur in office settngs.
                  Twenty-seven percent of transforaminal epidural injection services
                  provided in offices had a documentation error, compared to 13 percent of
                  transforaminal epidural injection services provided in facilities. See
                  Table 4 for error rates by setting and error type.
                         Table 4: Error Rates by Setting and Error Type for
                         Medicare Transforaminal Epidural Injection Services-
                         Physician Claims, 2007
                          Type of Error                                              Office           Facility

                          Documentation'                                                27%              13%

                          Medical Necessity                                             18%               9%

                          Coding                                                         8%               9%

                          Any Error                                                  41%"                28%
                          Source: OIG analysis of medical review results, 2009,
                          'Statistically significant difference at the 95-percent confidence leveL.
                          '.Numbers do not sum to total because of overlapping errors,




OEI.05.09.00030   INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES                 13
FINDINGS

                   Thirteen percent of transforaminal epidural injection services had a medical
                   necessity error
                   Medicare allowed approximately $19 millon to physicians for
                   transforaminal epidural injection servces that medical reviewers
                   determined were medically unnecessary. In most instances, the record
                   contained no evidence of a condition that required a transforaminal
                   epidural injection. In some instances, the procedure was repeated at
                   close intervals with no evidence that it was relieving the patient's pain.
                   Eight percent of transforaminal epidural injection services had a coding
                   error
                   Medicare allowed $6 million to physicians in overpayments, net of
                   underpayments, for transforaminal epidural injection services that were
                   miscoded. The reviewer found primarily that physicians improperly
                   used add 'on codes and bilateral modifiers. In some instances, the
                   physicians performed less intensive procedures, but biled for
                   transforaminal epidural injections.
                   All but one ofthe miscoded services resulted in overpayment. The one
                   underpayment was a bilateral transforaminal epidural injection service
                   for which the provider biled only a unilateral service.
                                                                   Contractors used LCDs primarily
   In 2007, 9 of 14 contractors had an LCD for
                                                                   to safeguard Medicare payments
transforaminal epidural injection services, but                    for transforaminal epidural
      reported limited use of other safeguards                     injections. However, only one
                   contractor enforced all LCD requirements through edits. No contractors
                   performed medical reviews to safeguard services in 2007.
                   Nine contractors had an LCD for transforaminal epidural injections
                   Nine of the fourteen contractors had an LCD for transforaminal
                   epidural injection services in 2007. These LCDs covered 30 States.
                   Most commonly, these contractors had the following requirements in
                   their LCDs: (1) requiring that the procedure be performed only on
                   patients with acceptable diagnoses codes, (2) requiring that providers
                   use radiographic guidance for the procedure, (3) prohibiting multiple
                   pain management services on the same day, and (4) limiting the
                   frequency of    the procedure. Less common requirements included
                   requiring more conservative treatments (such as physical therapy) prior
                   to trans foramina i epidural injections and allowing only experienced
                   providers to perform the procedure.



 OEI.05.09.00030   INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES   14
FINDINGS
                  Among the four most common LCD requirements, contractors most
                  frequently required that providers perform the procedure only on
                  patients with acceptable diagnoses codes. All nine contractors with
                  LCDs listed this requirement in their LCD. In addition, eight of                 the
                  nine contractors required radiographic guidance in their LCD. Overall,
                  six of the nine contractors listed all four of the most common
                  requirements in their LCD.
                  Subsequent to our analysis period, the number of contractors with LCDs
                  decreased. In 2009, 7 contractors had LCDs covering 23 States.
                  Eight contractors did not enforce all of their LCD requirements with edits
                  Although, in general, contractor staff reported that edits were the best
                  way to enforce the requirements in their LCDs, only one contractor
                  enforced all LCD requirements with edits. Two contractors did not have
                  any edits. See Table 5 for a list of the most common LCD requirements
                  and corresponding edits by contractor.




OEI.05.09.00030   INAPPROPRIATE MEOICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES         15
FINDINGS

                  Table 5: 2007 Common LCD Requirements and Edits by
                  Contractor




                                                                      Edit   LCD     Edit      LCD      Edit

                                                                              .                  .
                  2                                                           .                  .
                  3

                  4

                  5                                          .                                   .
                  6

                  7                                          .                .
                  8                    .                     .                .                  .
                  9                    .                     .                .                  .
                  10

                  11

                  12

                  13

                  14
                  Source: OrG interviews and document review, 2009,


                       The most commonly used edits ensured that claims were paid only for
                       procedures performed on patients with acceptable diagnoses codes. Six
                       of the nine contractors listing acceptable diagnoses codes in the LCD
                       had corresponding edits. These edits were intended to automatically
                       check that physicians biled only acceptable diagnoses and deny claims
                       biled without acceptable diagnoses codes.

                       Contractors seldom used other edits to enforce requirements in their
                       LCDs. Only one ofthe eight contractors requiring radiographic
                       guidance in the LCD created a corresponding edit. Only one of the
                       seven contractors prohibiting multiple pain management services on the
                       same day had a corresponding edit. Only one of the six contractors with
                       frequency limits in the LCD developed a corresponding edit.


OEI.05.09.00030        INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES          16
FINDINGS
                  Contractors did not use edits to enforce less common requirements from
                  LCDs.
                  In some instances, contractors could not create edits because claims
                  lacked the required information to implement the edits. For example,
                  several contractors had LCDs that limited the frequency of injections
                  per spinallevel, but claims did not capture which of the spinal levels in
                  the back were injected. Similarly, several contractors had LCDs with
                  different frequency limits for diagnostic and therapeutic injections, but
                  claims did not capture whether an injection was diagnostic or
                  therapeutic.
                  In other instances, claims captured the required information, but
                  contractors did not create edits to enforce LCD requirements. Most
                  contractors had an LCD requiring that providers use radiographic
                  guidance. Providers separately bil radiographic guidance on the
                  claims. However, only one contractor developed an edit related to
                  radiographic guidance.

                  Subsequent to our analysis period, the number of contractors with edits
                  decreased. In 2007, 7 of the 14 contractors had at least 1 edit covering
                  20 States. In 2009, only four contractors had edits enforcing their LCD
                  requirements. These edits covered seven States.
                  No contractors reported performing medical reviews
                  No contractor staff reported performing medical reviews for
                  transforaminal epidural injections in 2007.
                  Most contractor staff reported that they analyzed data for
                  transforaminal epidural injections, but did not find any outliers
                  warranting medical review. CMS requires that contractors analyze
                  data to prioritize the use of limited medical review resources.
                  Contractors might do a medical review if they notice outliers in the
                  data, such as one provider that bils substantially more than his peers.
                  Despite limited use of                                reported that it is
                                              medical review, contractor staff


                  a useful safeguard because it reveals problems not identifiable through
                  data analysis or edits. Staff from five contractors stated that medical
                  review is more comprehensive than either edits or data analysis. For
                  example, in 2009, one contractor performing a medical review for
                  transforaminal epidural injections found that providers were
                  administering too much steroid medication, a potentially dangerous
                  practice. The contractor staff reported that this problem was revealed
                  only through a detailed medical review.

OEI.05.09.00030   INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES   17
.. RECOMMENDATIONS
                   This report identifies problèms with Medicare payments for
                   transforaminal epidural injections. Thirty-four percent of
                   transforaminal epidural injection services in 2007 did not meet
                   Medica:re requirements, resulting in improper payments of
                   approximately $45 milion. Further, Medicare allowed an additional
                   $23 milion in associated facility claims for transforaminal epidural
                   injections in error. Transforaminal epidural injection services delivered
                   in offce settings were more likely to have a documentation error
                   compared to services delivered in facilities. Nine of fourteen contractors
                   had an LCD for transforaminal epidural injection services, but reported
                   limited use of other safeguards. No contractors performed medical
                   reviews for transforaminal epidural injection services in 2007.
                   This report is the second in a series on Medicare pain management
                   services. A 2008 OIG report found that 63 percent offacet joint
                   injections in 2006 did not meet Medicare requirements, resulting in
                   improper payments of $96 milion. The previous report found that facet
                   joint injections delivered in office settings were more likely to have an
                   error.
                   Based on the results of this body of work, CMS should:
                   Conduct provider education, directly and through contractors, about proper
                   documentation
                   Nineteen percent of transforaminal epidural injection services had a
                   documentation error. CMS should conduct provider education
                   regarding proper documentation to reduce future documentation errors.
                   CMS should also direct contractors to conduct provider education about
                   proper documentation for transforaminal epidural injection services.
                   Strengthen program safeguards to prevent improper payment for
                   transforaminal epidural injection services
                   To strengthen      program safeguards, CMS could encourage contractors to:
                   Examine transforaminal epidural injection services provided in offices.
                   Both our current study and our 2008 facet joint injection study found
                   higher error rates for services performed in offices. Contractors could
                   examine services provided in offces to safeguard Medicare payments.
                   Develop LeOs for transforaminal epidural injections. Between 2007 and
                   2009, the number of States covered by an LCD for transforaminal
                   epidural injection services decreased from 30 to 23. Contractors that do
                   not have an LCD to define requirements for transforaminal epidural

 OEI.05.09.00030   INAPPROPRIATE MEOICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES   18
RECOMMENDATIONS
                  injections may consider developing one. As noted in the limitations
                  section of this report, we were not able to assess whether contractor
                  safeguards, such as LCDs, had an impact on error rates. However,
                  LCDs may be helpful to control improper payments for other reasons,
                  such as establishing criteria for law enforcement action.
                  Develop additional edits enforcing LCD requirements for transforaminal
                  epidural injection services. Both our current study and our 2008 facet
                  joint injection study found that not all LCD requirements were enforced
                  by edits. In addition, between 2007 and 2009, the number of States
                  covered by at least 1 edit for transforaminal epidural injection services
                  decreased from 20 to 7. Contractors could strengthen current
                  safeguards for both transforaminal epidural injection services and facet
                  joint injection services by developing edits to enforce the requirements.
                  Use medical review to identify improper payments for transforaminal
                  epidural injection services. Thirty-four percent of transforaminal
                  epidural injection services were paid in error. Thirteen percent were
                  medically unnecessary. Additional medical reviews may limit future
                  improper payments and protect beneficiaries from unnecessary services.
                  Take appropriate action regarding the undocumented, medically
                  unnecessary, and miscoded services identified in our sample
                  We wil forward information on these services to CMS under separate
                  cover.




                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with our recommendations and outlined steps to
                  improve its oversight of       payments for transforaminal epidural injection
                  services. We did not make any changes to the report based on CMS's
                  comments. For the full text of CMS's comments, see Appendix C.




OEI.05.09.00030   INAPPROPRIATE MEOICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES   19
.. APPENDIX-A
                   Detailed Methodology
                   Sample Selection
                   The population from which we sampled consisted of all the allowed
                   physician services in the Centers for Medicare & Medicaid Services
                   National Claims History (NCH) file for Current Procedural Terminology
                   (CPT) codes 64479, 64480, 64483, and 64484 performed in 2007. We
                   stratified the sample by place of service and dollar amount. We
                   stratified by place of service to compare rates by setting (office and
                   facility). Previous work found significantly different error rates
                   between these two settings. We further stratified by the dollar amount
                   of the claims to improve our ability to provide an overall estimate of the
                   dollars in error with an acceptable confidence interval. We randomly
                   selected 110 claims from each stratum for review, for a total of
                   440 claims. Table A-I shows the sampling stratification and population
                   of claims for CPT codes 64479, 64480, 64483, and 64484.

                  Table A-1: Sampling Stratification for Transforaminal Epidural
                  Injection Claims
                  Stratum                                   Description               Population          Sampled Claims


                   1 - Offce                                ~ $325                        103,987                   110


                  2 - Offce                                 2: $15 to:S $325              242,074                   110

                  3 - Facility (Ambulatory
                  Surgical Center (ASC) and                 ~ $100                        149.362                   110
                  Hospital Outpatient)
                  4 - Facility ASC and Hospital
                                                            2: $15 to:S $100              311,278                   110
                  Outpatient)

                     Total                                                                806,701                   440
                  Source: Ofce of Inspector General (OIG) analysis of 2007 NCH physician/supplier file,


                  Data Collection
                  Medical Record Review. We used a medical record review contractor to
                  conduct the medical record review. We requested, by mail, complete
                  medical records and documentation from physicians for the services in
                  our sample. We specified that providers send the following materials, if
                  available: initial patient evaluation and exam, test results,
                  radiographic evidence of needle placement, and procedure notes. For
                  additional context, we also requested that providers furnish all


OEI.05.09.00030   INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES                     20
APPENDIX~A
                  documentation for all services provided to the beneficiary 4 months
                  before and 1 month after the sampled date of servce.
                  We requested the beneficiary's medical record from the provider
                  associated with the sampled claim. We used the Unique Physician
                  Identification Number validation fie and the National Provider
                  Identifier to obtain contact information for the provider when mailing
                  the request.

                  We allowed at least 7 weeks from the date of             the initial request for the
                  sampled provider to fax or mail the records to the medical review
                  contractor. We made at least two additional written attempts followed
                  by two telephone calls to obtain the records. The last written request
                  was mailed by signature-required certified maiL.
                  Our response rate for this study was 99 percent. Of the 440 services
                  that we originally sampled, 2 services were removed because of ongoing
                  OIG investigations. Then we requested records for the remaining
                  438 sampled services. We classified five ofthese as nonresponders. We
                  classified two servces as nonresponders because we were unable to
                  locate the sampled provider, and we classified three servces as
                  nonresponders because the provider returned the record too late to be
                  reviewed. Our analysis was based on the 433 remaining services in the
                  sample for which we received a response.
                  Test Review. To test our review instrument and ensure uniformity
                  among the reviewers, we conducted a preliminary medical review of
                  20 servces. These servces were randomly sampled from the same
                  population where we drew our final sample. However, the preliminary
                  sample was chosen separately from the sample used for the final review.
                  We analyzed the results of the test review and discussed them with the
                  reviewers. The reviewers resolved inconsistencies in the results and
                  suggested changes to the review instrument. Some of the changes were
                  incorporated into the final review instrument as appropriate.
                  Data Analysis
                  Calculation of improper physician payments. We calculated the total
                  actual and projected dollars paid in error for these services. For
                  services that were not medically necessary, insuffciently documented,
                  or not documented, we counted the entire Medicare-allowed amount as
                  improper and projected the amount paid in error. For services with a
                  coding error, we determined whether Medicare overpaid or underpaid.
                  We then calculated the total net difference for all services with a coding
                  error and projected it to the population.

OEI-05.09-00030   INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERYICES   21
APPENDIX                            A



                  We projected dollars in error and percentage of services in error to the
                  population of all transforaminal epidural injection services in 2007. We
                  removed any overlap in sampled services that had multiple errors.
                  Calculation of improper faciltv payments. In addition, we calculated and
                  projected the facility payments associated with physician services that
                  were performed in facilities and did not meet documentation or medical
                  necessity requirements. For services performed in ASCs and hospital
                  outpatient departments, we used the NCH Part B file and the hospital
                  outpatient file, respectively, and matched facility claims to physician
                  claims using the dates of service, CPT, and beneficiary identification.
                  Afer matching the claims, we projected the facility dollars paid in error.
                  Our estimate of facility dollars associated with physician services in
                  error is conservative. First, we excluded physician services in error
                  because of    incorrect'coding. It would have required a coding review of
                  the facility claim to determine the amount in error on the facility claim,
                  which was beyond the scope of our study. Second, among the errors
                  that we did attempt to match, we were not able to find all matching
                  facility claims. We were able to match only 69 percent of sampled
                  physician services performed in facilities and having a documentation or
                  medical necessity error to their associated facility payment.




OEI.05.09.000JO   INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES   22
  ..               APPENDIX                                      B




                                     Confidence Intervals for Selected Estimates
Table B-1: Estimates of All Errors

 Estimate Description                                                           Point Estimate     95-Percent Confidence Interval


 Percentage of services with any error                                                   33.9%                    29.1 %-38,7%

 Percentage of services with any documentation error                                     19,2%                     15.4%-23.0%

 Percentage of services with no documentation'                                            9,8%                      6.8%-12,7%

Percentage of services with insuffcient documentation                                     9.4%                      6.6%-12.4%

Percentage of services that were not medically necessary                                 12,9%                      9,6%-16,3%

Percentage of services coded incorrectly                                                  8.3%                      5.5%-11,2%

Percentage of services with overlapping errors                                            6.6%                       4.1%-9.0%
Percentage of amount allowed in error among all allowed                                  31.7%                     27.0%-36.4%
amounts for transforaminal epidural injection services
Source: Ofice of Inspector General (OIG) analysis of medical review results, 2009,



Table B-2: Estimates of Improper Physician Payments Associated With All Errors

Estimate Description                                                             Point Estimate    95-Percent Confidence Interval


Amount allowed for services with any error                                           $44,833,417     $38,188,484-51,478,349

Amount allowed for services with any documentation error                             $28,895,365     $22,934,192-$34,856,538

Amount allowed for services with no documentation                                    $14,005,827       $9,505,141-$18,506,513

Amount allowed for services with insuffcient documentation                           $14,889,538     $10,360,675-$19,418,401
Amount allowed for services that were not medically
                                                                                     $18,831,045     $13,779,543-$23,882,548
necessary
Amount allowed for services coded incorrectly                                         $6,248,458        $3,829,614-$8,667,303

Amount allowed for services with overlapping errors                                   $9,141,452       $5,352,508-$12,930,395
Source: OIG analysis of medical review results, 2009,




         o E 1.0 5-09.00030          INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES                 23
        A P PEN D                         x        B




Table B-3: Estimate of Improper Facilty Payments Associated With Any Error




Source: OIG analysis of medical review results, 2009,




Table B-4: Estimates of Errors by Setting and Type
                                                                                   Point
Error Type                                          Setting                    Estimate         95-Percent Confidence Interval
              ,
                                                               Offce              27.0%                        20.5%-33,5%
Docum entation
                                                              Facilty             13.3%                         8.6%-18,0%
                                                               Offce              17.7%                        12.1 %-23,3%
Medical Necessity
                                                              Faciliy              9,3%                         5,1%-13.4%
                                                               Offce               8.0%                         4.0%-12,0%
Coded Incorrectly
                                                              Facility             8.6%                         4.6%-12,6%
                                                               Offce              41.3%                        34.1 %-48.4%
Any Error
                                                              Facility            28,3%                        22.0%-34.7%
Source: OIG analysis of medical review results, 2009,




         OEI.05.09.00030             INAPPROPRIATE MEOICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES              24
..     A P PEN 0                                  x              c

                              Agency Comments


          ,pVICea"lf

                                                                                                        Centers for Medicare & Mediceid Servces


        l4 DEPARTM DF HEALTH & HUMAN SERVICES                                                           Off!iof the A¡lministrator
                                                                                                        wasl\ton. dç 2%91 :~
                                                                                                                      ~ .~ ''\
                                                                                                                   C\,  _ '''
                                                                                                                    ~~ .~~ ~)

                                                                                                                    i;~
                                                                                                                     i: ~e,"
                                                                                                                          \ '\
                       DATE:                MAY 1 02010                                                               -i ~ ('
                       TO:
                                                                                                                                ~ 0
                       FROM:


                       SUBJECT: Offce of Inspector General (OIG) Draf Report: "Inappropriate Medicare
                                  Payments for Transforaminal Epidural Injection Services" (OEI-05-09-00030)

                       Thank you for the opportunity to review and comment on the Offce of Inspector General's
                       (OIG) draft report, "Inappropriate Medicare Payments for Transforaminal Epidural Injection
                       Services." The Centers for Medicare & Medicaid Services (CMS) appreciates the time and
                       resources the OIG has invested to determine the extent to which Medicare Par B payments for
                       transforaminal epidural injections met Medicare requirements.

                       Transforaminal epidural injections are a pain management technque used to
                                                                                                 diagnose or treat
                       pain. The OIG conducted a medical record review of a stratified random sample of 433
                       transforainal epidural injections performed in 2007. The OIG determined that thirty-four
                       percent of   trans   foraina   i epidural injection services allowed by Medicare in 2007 did not meet
                       Medicare requirements. In addition, OIG reported that nine out offoureen CMS contractors had
                       a Local Coverage Determination (LCD) for transforaminal epidural injection services but only
                       one contractor enforced all LCD requirements with edits.

                       The CMS appreciates the work of OIG on this issue and wi1 work to improve our oversight of
                       these payments in the future. As a result of its findings,'the om made the following
                       recommendations:

                       OIG Recommendation
                       Conduct provider education, directly and though contrctors, about proper documentation.

                       eMS Response
                       The CMS concurs with ths recommendation. CMS wil direct contractors to conduct provider
                       education about proper documentation for transforaminal epidural injections especially provided
                       in offces. CMS wil issue a Medicare Learing Network Matters Arcle on this topic related to
                       documentation requirements and expectations.




 o E I. 05-09.000 30          INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES                               25
A P PEN 0                      x               c




                   Page 2 - Daniel R. Levinson


                   OIG Recommendation
                   Strengthen progr safeguards to prevent improper payment for tranforaminal epidural
                   injection services.


                   CMS Response
                   Examine transforaminal epidural injection services provided in offices.
                   The CMS concurs. To strengten program safeguards, CMS wil instrct the appropriate
                   Medicare contractors to review their claims data for transforaminal epidural injection servces
                   paricularly in the offce, due to higher error rates in that setting.

                   Develop LCDs for transforaminal epidural injection services.
                   The responsibilty to determine whether or not to develop an LCD lies with the Medicare
                   Administrative Contractors (MACs). CMS wil shar the results of
                                                                                            the OIG report with the
                   Medicare contractors, who may develop policies under their own authority and based on CMS
                   manual instrctions.

                   Develop additional edits enforcing LCS requirements for trasforamnal epidural injection
                   services.
                   The CMS concurs. CMS wil instrct            contractors to examine whether sufficient edits are in
                   place to enforce LCDs.

                   Use medical review to identify improper payments for tranforaminal epidural injection services.
                   The CMS concurs. CMS will instruct the MACs to tae appropriate action
                                                                                            consistent with their
                   individual prioritized medical review strategy. MACs use their medical review strtegies to best
                   focus their resources relative to other vulnerabilties.

                   OIG Recommendation
                   Take appropriate action regarding the undocUIented, inedically unnecessar, and miscoded
                   services identified in our sample.

                   CMS Response
                   The CMS concurs. CMS wil share the OIG report and any additional claim information received
                   with the appropriate Medicare contractors. CMS will instruct them to consider the issues
                   identifed in this report and the additional claim information when prioritizing their Medicare
                   review strategies.

                   The CMS requests that OIG fuish the necessary data, including Medicare contractor numbers,
                   provider numbers, claims inormation including the paid date, HlC numbers, etc. to accomplish
                   our review. In addition, CMS requests that Medicare contractor-specific data be wrtten to
                   separate CD-ROMs or separate hardcopy worksheets to better faciltate the transfer of
                   information to the appropriate contractors,

                   The CMS appreciates the O!G's effort and insight on this report. CMS looks forward to
                   continualy working with OIG on issues related to waste, fraud and abuse in the Medicare
                   program.




 OEI.05.09.00030          INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES                26
.. ACKNOWLEDGMENTS

                   This report was prepared under the direction of Ann Maxwell, Regional
                   Inspector General for Evaluation and Inspections in the Chicago
                   regional office, and Thomas Komaniecki, Deputy Regional Inspector
                   General.
                   Laura Kordish served as the team leader for this study and Beth
                   McDowell served as the lead analyst. Other principal Offce of
                   Evaluation and Inspections staff            from the Chicago regional offce who
                   contributed to the report include Lisa Minich and Lauren Rosapep;
                   central     offce staff       who contributed include Sandy Khoury and Megan
                   Ruhnke.




 OEI.05.09.00030   INAPPROPRIATE MEDICARE PAYMENTS FOR TRANSFORAMINAL EpIDURAL INJECTION SERVICES   27
